<html>
<title> - OVERSIGHT OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 115-163]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 115-163

                            OVERSIGHT OF THE
                     NUCLEAR REGULATORY COMMISSION

=======================================================================

                                 HEARING

                               	BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-623 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           DECEMBER 13, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Svinicki, Kristine, Chairman, U.S. Nuclear Regulatory Commission.     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    26
        Senator Booker...........................................    40
        Senator Boozman..........................................    45
        Senator Capito...........................................    54
        Senator Duckworth........................................    60
        Senator Fischer..........................................    62
        Senator Sanders..........................................    69
        Senator Whitehouse.......................................    76
        Senator Markey...........................................    80
Baran, Jeff, Commissioner, U.S. Nuclear Regulatory Commission....    87
    Prepared statement...........................................    88
    Responses to additional questions from Senator Sanders.......    89
    Response to an additional question from Senator Whitehouse...    90
    Responses to additional questions from Senator Markey........    91
Burns, Stephen, Commissioner, U.S. Nuclear Regulatory Commission.    94
    Prepared statement...........................................    95

 
                           OVERSIGHT OF THE 
                     NUCLEAR REGULATORY COMMISSION

                              ----------                              


                      WEDNESDAY, DECEMBER 13, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Building, Hon. John Barrasso (Chairman of 
the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Capito, Fischer, 
Rounds, Carper, Whitehouse, Markey, and Duckworth.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Today's oversight hearing will be looking at the Nuclear 
Regulatory Commission, the NRC. I would like to welcome 
Chairman Svinicki, Commissioner Baran, and Commissioner Burns. 
I am sad to say that the Commission remains without its full 
strength of five Commissioners. This is a situation I am eager 
to resolve. I continue to believe that the Commission functions 
best with all five Commissioners in place.
    I am a strong supporter of nuclear energy as a vital 
component of an all of the above approach to American energy. 
For our country to continue to benefit from nuclear energy, we 
need the NRC to be an effective, efficient, and predictable 
regulator.
    The NRC's efficiency principle of good regulation states, 
``The American taxpayer, the rate paying consumer, and 
licensees are all entitled to the best possible management and 
administration of regulatory activities.'' I agree. It is our 
Committee's responsibility to assess the agency's performance. 
Where the NRC's safety mission is paramount, the NRC must 
execute that mission in a fiscally responsible and timely 
fashion.
    My home State of Wyoming plays a key role in the American 
nuclear energy supply. It produces more uranium than any other 
State. I want to commend the Commission for agreeing to extend 
the duration of uranium recovery licenses from 10 years to 20 
years. This is an important recognition that the regulatory 
burden placed on these facilities is disproportionately high 
given how the NRC considers their operations to be ``low 
risk.''
    The growth of this regulatory burden is clear in the 
monthly report. The NRC is taking far longer to make uranium 
recovery decisions than it did 10 years ago. This general lack 
of urgency is troubling.
    As uranium producers struggle with depressed prices and 
U.S. uranium production is at levels we have not seen since the 
early 1950s, the need for timely decisionmaking from the NRC is 
greater than ever.
    The NRC is also lagging in its progress toward instituting 
flat fees for routine uranium recovery licensing actions. These 
would be fees on uranium producers by the NRC that would not 
increase.
    Four years seems to be an inordinate amount of time for the 
NRC to institute flat fees, given that some of the NRC's 
agreement States--States that have assumed responsibility for 
regulating their uranium recovery facilities--already have flat 
fees in place.
    Wyoming is seeking to become an NRC agreement State and 
assume responsibility for regulating its uranium recovery 
facilities. While this will be a positive step for Wyoming and 
its uranium producers, it is also a strong verdict on the need 
for the NRC to improve its performance.
    Improving performance was the goal of the NRC's Project Aim 
2020, ``to transform the agency over the next 5 years,'' it 
says, ``to improve the effectiveness, efficiency, and agility 
of the NRC.''
    Unfortunately, Project Aim 2020 seems to be ending 
prematurely. The most recent Project Aim status report 
indicates the NRC will complete the vast majority of action 
items early next year, and the NRC staff will no longer report 
on it.
    Project Aim 2020 is becoming Project Aim 2018, yet the 
challenges facing the NRC remain. These include premature 
closures of nuclear power plants, decreased licensing work at 
the NRC, and declining new reactor reviews at the NRC.
    The NRC must continuously strive to improve its 
performance. This requires diligent leadership from the 
Commission. I look forward to having a discussion today with 
the Commission about these important issues.
    Following the opening statement by Ranking Member Carper, 
we will continue with the Committee's practice of a 5 minute 
opening statement from Chairman Svinicki and then 2 minute 
statements from each of the Commissioners.
    With that, I would now like to turn to the Ranking Member 
for his statement.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Welcome to the Chairman and the Commissioners this morning.
    A special thanks to our Chair for pulling this together. I 
think it is a timely hearing, one that we need to have. As you 
know, this industry faces real challenges these days, but there 
are still real opportunities that this industry can help us to 
address.
    The nuclear industry is at something of a crossroads, as we 
know. The path the industry decides to take will have 
ramifications not just for the industry but for our country and 
for the citizens of our country, I think, for decades to come.
    Let me begin by noting that it is important to examine the 
benefits as well as the drawbacks of nuclear energy. First and 
foremost, nuclear power helps curb our nation's reliance on 
dirty fossil fuels and reduces our air pollution that threatens 
our health and our climate.
    Second, nuclear energy has been continued to be a real 
economic driver in many places around the country. It creates 
construction jobs, manufacturing jobs, and operations jobs for 
communities across the nation.
    Despite all the benefits of nuclear power, I would be 
remiss not to mention some of the potential consequences of 
nuclear energy. We have seen from serious incidences in places 
like Fukushima the damage that nuclear power can cause if the 
proper safety precautions are not in place, up to date, or not 
strictly followed.
    With nuclear energy, safety has been and must remain a top 
priority in the operation of nuclear reactors. Let me repeat 
that. With nuclear energy, safety has been and must remain a 
top priority in the operation of nuclear reactors.
    That is a primary responsibility of this Committee, 
especially the Nuclear Regulatory Subcommittee, of which in the 
past, I have been a member, for many years actually.
    Unfortunately, the cost of safety precautions, along with 
the cost of construction, operations, and maintenance for 
current nuclear reactors can be expensive, as we know, 
especially when compared to the cost of other sources of energy 
such as natural gas.
    In fact, some U.S. reactors are retiring sooner than 
expected due to market forces. At the same time, our country's 
nuclear reactors are getting older and will need to be replaced 
in the years to come.
    Building new reactors--as we have seen in Georgia and South 
Carolina--has proven more difficult than predicted a decade 
ago. As most of my colleagues know, I often try to see the 
glass half-full. I believe the challenges the nuclear energy 
faces today can make it stronger and more efficient tomorrow, 
and frankly, make our nation stronger.
    If our country is smart, we will replace our aging nuclear 
reactors with new technology developed in this country that is 
safer, that produces less spent fuel, and is cheaper to build 
and to operate.
    If we seize this opportunity, the U.S. can be a leader in 
nuclear energy again, as we once were, reaping the economic and 
clean air benefits that flow from that leadership. In order to 
do so, we must make sure that the NRC has the resources it 
needs to review these new technologies and make certain our 
current nuclear reactor fleet continues to be operated safely.
    Since joining this Committee I have worked closely with a 
number of our colleagues to strengthen the culture of safety 
within the U.S. nuclear energy industry. In part due to our 
collective efforts, the NRC leadership, and the Commission's 
dedicated staff, the NRC continues to be the world's gold 
standard for nuclear regulatory agencies.
    Success at any organization starts with the leadership at 
the top. I must say I have been quite impressed with the 
current Commissioners at the NRC and its members' ability to 
work together.
    I especially want to applaud Kristine Svinicki, for her 
leadership, the long membership and service that she has 
provided at the NRC, especially as our Chair.
    Each Commissioner brings a unique set of skills to the 
Commission, which has served the NRC, and I think, our country 
very well. These three Commissioners have done an excellent 
job. However, having a full complement of NRC Commissioners 
would be ideal.
    As my colleagues know, our Committee has reported out 
several quality NRC nominees, including Jeff Baran's 
renomination, that await Senate confirmation. I hope we can 
quickly confirm all three of the NRC nominees, giving the 
nuclear industry critical regulatory certainty at a time when 
there is much uncertainty in other areas.
    An organization also needs a strong and dedicated work 
force with the necessary resources in order to be successful. 
At one time, the NRC year after year ranked as the top place in 
the Federal Government to work. Now, at No. 11, that is better 
than a lot of other agencies, but it is not No. 1. Part of what 
I want us to talk about is how we get the NRC headed back to 
the top.
    Budget cuts and uncertainty in the nuclear industry play a 
big role in this change, and I look forward to hearing from all 
of you about these issues. Most importantly, I want to hear 
what more we can do to better retain and recruit a quality work 
force at the NRC which is still revered across the globe.
    I will close with this thought. Martha and I have two sons. 
They were both Boy Scouts, probably Eagle Scouts. I used to 
take them down to the Norfolk Naval Station. I am a retired 
Navy Captain, former naval flight officer.
    I would take them down to the Norfolk Naval Station about 
every 3 or 4 years, 25 or 30 of the Scouts and some of the 
adult leaders. We would spend the weekend at Norfolk Naval 
Station and had the opportunity over a weekend to sleep in the 
barracks, eat in the galley, and visit ships, submarines, and 
aircraft carriers.
    One morning, we visited the Teddy Roosevelt, one Sunday 
morning at Norfolk Naval Station. The captain of the ship came 
to meet with us, took us up on the bridge and addressed our 
Scouts and the adult leaders.
    He said these words, talking to our Scouts, ``Boys, when 
the Teddy Roosevelt goes to sea, it is 1,000 feet long,'' and 
the boys went oooh. He said, ``Boys, when the Teddy Roosevelt 
goes to sea, it carries over 5,000 sailors,'' and the Scouts 
went oooh. He said, ``Boys, when the Teddy Roosevelt goes to 
sea, it carries onboard 75 aircraft.'' The boys went oooh. He 
said, ``Boys, when the Teddy Roosevelt goes to sea, it doesn't 
refuel for 25 years.'' The adults went oooh. They tell that 
story again today.
    We have challenges with respect to nuclear energy. No doubt 
about that, but it is also a great opportunity. That is just 
one of them. That is just one of them.
    I spent many years in the Navy tracking submarines, nuclear 
submarines, and a lot of nuclear parts on ships. I do not know 
of a single fatality to the Navy personnel because of failure 
of the nuclear power plants on those ships, vessels, and so 
forth.
    The last thing I want to say is we have real problems and 
real challenges, although we are making progress, with respect 
to clean air, emission of sulfur oxide, nitrogen oxide, 
mercury, CO<INF>2</INF>, and others. The good thing about 
nuclear--maybe the best thing about nuclear--is it is our 
biggest source of clean energy with none of those pollutants, 
including especially CO<INF>2</INF>.
    For all those reasons I think it is important that we find 
a way to strengthen the industry and a big part of that is 
making sure we have a strong NRC with great leadership at the 
top.
    Thanks, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    I want to again welcome the witnesses and remind you that 
your full written testimony will be made a part of the official 
hearing today. I look forward to hearing your testimony 
beginning with Chairman Svinicki.
    Please proceed.

                STATEMENT OF KRISTINE SVINICKI, 
          CHAIRMAN, U.S. NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you, and good morning, Chairman 
Barrasso, Ranking Member Carper, and distinguished members of 
the Committee.
    My colleagues and I appreciate the opportunity to appear 
before you today to discuss the U.S. NRC's licensing and 
regulatory actions since our last appearance.
    The Commission's continued efforts to improve the agency's 
efficiency and effectiveness have focused on providing the 
appropriate level of resources to both corporate and 
programmatic areas, while continuing to carry out our vital 
safety and security mission without diminishment.
    In June 2014 the NRC established Project Aim to enhance the 
agency's ability to plan and execute its mission in a more 
efficient and effective manner. The agency continues to 
institutionalize the actions related to Project Aim and pursue 
additional activities that demonstrate the NRC's continuing 
commitment to effectiveness, agility, and efficiency.
    Since the initiative began, we have endeavored to forecast 
our work with greater accuracy and identify changes to our 
resource needs in this dynamic nuclear environment. In light of 
the uncertainty in work forecasts, the agency is pursuing 
activities such as standardizing and centralizing support staff 
functions of both our headquarters and regional offices and 
institutionalizing a common prioritization process to prepare 
the agency to evaluate emerging work more readily and to staff 
it more efficiently.
    We are also implementing an enhanced strategic work force 
planning process to improve the training, agility, and 
utilization of our very capable work force.
    In a separate improvement initiative, the NRC has analyzed 
its fee setting process to improve transparency, equitability, 
and timeliness. To improve transparency, the agency has engaged 
with stakeholders over the past 2 years to better understand 
their interests associated with how information is presented on 
invoices.
    Based on these engagements, the agency initiated several 
projects to improve how billable work is tracked and reported.
    In our programmatic work, the NRC continues its pursuit of 
risk informed regulation through which we strive to put focus 
on those issues that are most important based on their safety 
significance.
    Currently the NRC staff is evaluating and updating key risk 
informed, decisionmaking guidance, developing a graded approach 
for using risk information in licensing reviews, implementing 
training requirements for agency staff, enhancing communication 
of risk activities, and advancing other initiatives across the 
agency.
    The NRC has also taken many steps over the last year to 
ensure uniform implementation of the agency's back fitting 
regulations which govern when the agency can impose additional 
requirements and are an essential part of the stability of our 
regulatory framework.
    In support of this initiative, the staff is undertaking 
actions to improve oversight by NRC managers and lead to more 
consistent identification and treatment of potential back 
fitting issues.
    The NRC also continues to evolve its licensing process for 
operating reactors. For example, the nuclear industry is 
researching advanced fuel designs aimed at improving safety 
margins under both normal and postulated accident conditions.
    Several vendors are exploring candidate designs which they 
refer to as accident tolerant fuel. In response, the NRC is 
developing plans to ensure that we are prepared to effectively 
and efficiently review these fuels to ensure their proposed use 
meets our high safety standards.
    The NRC has also received four letters of intent to seek 
subsequent license renewal which would authorize operation of 
commercial nuclear power reactors for up to 80 years. The NRC 
has been preparing for these reviews for several years and has 
published final versions of the documents that provide guidance 
for applicants and the NRC technical reviewers respectively.
    Regarding NRC's activities associated with new reactors, 
although the licensees for V.C. Summer Units 2 and 3 decided to 
discontinue construction of those new units in South Carolina. 
The NRC's New Reactor Program continues its focus in support of 
the activities necessary to ensure the safe construction of the 
two AP1000 units under construction at the Vogtle site in 
Georgia.
    The NRC is also finalizing and testing the regulatory 
procedures that will be necessary to assess the transition of 
these plants from the construction phase into their operating 
status.
    We have also docketed the first application for a small 
modular reactor design and received an application from an 
early site permit for a small modular reactor in Tennessee. 
Both of these reviews are progressing on schedule.
    We also continue our pre-application engagement with 
advanced reactor designers and vendors. Significant activity in 
the area of rulemaking is our rulemaking to improve the 
efficiency of the decommissioning transition process for 
operating reactors shutting down in the next few years.
    We have published a regulatory basis for the development of 
the proposed rule and concluded there is sufficient basis to 
proceed with new and modified regulations addressing emergency 
preparedness, physical security, training, and financial 
requirements, among other areas.
    We have received the request from the State of Wyoming to 
achieve agreement State status. We received that application 
package and are working to complete the assessment of that 
package. It will be provided to the Commission. The staff 
targets doing that in September 2018. The State of Vermont has 
also indicated its intent to pursue agreement State status.
    During this active hurricane season the NRC responded to 
Hurricanes Harvey, Irma, and Maria in accordance with our 
incident response plans. The NRC dispatched inspectors to the 
reactors impacted by the hurricanes to provide monitoring of 
the operators' event response. We worked closely with Federal 
partners such as FEMA.
    We will also, consistent with our practice, evaluate both 
the agency and licensee responses to the hurricanes and 
implement any lessons learned to further improve our event 
response going forward.
    In closing, the NRC continues to focus on efforts to 
achieve additional efficiencies without diminishment in our 
important public health and safety and security missions.
    On behalf of the Commission, I thank you for this 
opportunity to appear before you. We will be pleased to answer 
your questions at the appropriate time.
    Thank you.
    [The prepared statement of Ms. Svinicki follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Chairman Svinicki.
    Commissioner Baran.

                   STATEMENT OF JEFF BARAN, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Baran. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    Thank you for the invitation to appear today. It is a 
pleasure to be here with my colleagues to discuss the work of 
the Commission.
    Chairman Svinicki provided an overview of NRC's activities, 
including the progress the agency is making in implementing 
Project Aim. I want to briefly highlight a few important 
efforts now underway at NRC.
    NRC remains focused on post-Fukushima safety enhancements 
and lessons learned. The Commission is currently considering 
the draft final rule on mitigating beyond design basis events. 
That rule addresses a number of recommendations of the near 
term task force and is the culmination of years of work.
    Meanwhile, the staff's focus is shifting to oversight and 
inspection of licensee implementation of several safety 
enhancements and natural hazard evaluations.
    Decommissioning is another key issue for NRC. Since 2013 
six U.S. reactors have permanently shut down, and seven more 
have announced plans to close in the coming years. Despite the 
growing number of affected units, NRC does not currently have 
regulations specifically tailored for the transition from 
operations to decommissioning.
    As a result, licensees with reactors transitioning to 
decommissioning routinely seek exemption from many of the 
regulations applicable to operating reactors. The 
decommissioning rulemaking effort that is now underway will 
address this gap. It will allow us to move away from regulating 
by exemption in this area. The exemption approach is not very 
efficient and does not provide for public participation.
    The rulemaking also provides a chance for NRC and all of 
our stakeholders to take a fresh look at our decommissioning 
process and requirements. States, local governments, non-profit 
groups, and the communities around these plants are very 
engaged and want to share their views. We need to thoughtfully 
consider their ideas with an open mind.
    Even as some existing plants are decommissioning, there is 
a lot of interest in new advanced reactors. Five vendors have 
begun pre-application discussions with the staff, and we 
anticipate additional vendors may reach out in the near term.
    We want to make sure that we have an efficient and 
effective licensing process for non-light water reactors and 
are ramping up our activities in this area.
    We are happy to discuss these and any other issues of 
interest.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Baran follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Commissioner Baran.
    Commissioner Burns.

                  STATEMENT OF STEPHEN BURNS, 
        COMMISSIONER, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Burns. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    It is a pleasure to be here today. I appreciate the 
opportunity to testify and address our dedication to our safety 
and security mission, as we focus on ways to carry out that 
mission in an efficient and cost effective manner.
    The Chairman's testimony accurately summarizes, in my view, 
the agency's significant efforts over the last several years to 
improve its efficiency and effectiveness, efforts that indeed 
continue.
    I fully supported these efforts during my tenure as 
Chairman and in my current role as commissioner. The 
Commission, our senior leadership and our staff have 
demonstrated a proactive and responsible approach to good 
government through these efforts.
    It is important to not lose sight of the fundamental safety 
and security mission of the NRC. From its inception, this 
congressionally mandated mission has driven the NRC and 
continues to be the central focus of what we do every day.
    Having spent more than 37 years of my professional career 
with the NRC, I know there are times when we have had to learn 
from our experience, learn to do better and to improve our 
performance as a regulator, but on the whole, I can say without 
a doubt in my mind, I think we hit the mark the vast majority 
of the time in achieving a high standard of performance.
    Over the past year we have continued to hold the industry 
accountable through our inspection and oversight program, 
ensured the effective implementation of lessons learned from 
the Fukushima Daiichi accident, focused on cyber security, 
worked effectively with our partners in the States to ensure 
the safe and secure use of radioactive material, and sought 
improved performance by fuel cycle facilities.
    At the same time, we have undertaken reviews of the first 
small modular reactors submitted for design certification and 
of newly proposed facilities to produce radioisotopes for 
medical diagnostics and treatment. We prepared strategies to 
better prepare for the review of advanced reactor designs.
    Credit belongs largely to the day to day work of our 
dedicated staff in achieving these accomplishments. I 
appreciate their day to day focus on ensuring adequate 
protection of the public.
    Thank you for the opportunity to appear before you. I will 
be pleased to answer your questions.
    [The prepared statement of Mr. Burns follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Commissioner Burns.
    Thanks to all three of you for your testimony.
    I am going to start with a round of questions.
    Chairman Svinicki, in 2010--nearly 7 years ago--I wrote to 
President Obama about my concerns about the sale of the U.S. 
uranium assets of Uranium One, which is a Canadian company, to 
Rosatom, a Russian state owned company. I specifically raised 
concerns about future exports of U.S. uranium by Uranium One.
    I believe the Obama administration's response to my letter 
was, at best, misleading. Responding on behalf of the 
President, the former Chairman of the NRC, Chairman Jaczko, 
stated, ``In order to export uranium from the United States, 
Uranium One Inc. or its ARMZ,'' which was the subsidiary of 
Rosatom, ``would need to apply for and obtain,'' he said, ``a 
specific NRC license authorizing the export of uranium for use 
in a nuclear reactor.''
    We now know this is false. Uranium One did not need a 
specific NRC license to export U.S. uranium. Instead, Uranium 
One only needed to be--and later was--listed as a supplier on a 
transport company's NRC export license. Subsequently, Uranium 
One uranium has been exported overseas.
    On Monday I sent a letter to the NRC in an effort to find 
answers to why this response was so inaccurate from former 
Commission Chairman Jaczko.
    Chairman Svinicki, will you commit to providing me a timely 
and fulsome response?
    Ms. Svinicki. Yes, Chairman Barrasso. I and our Commission 
are in receipt of your letter received yesterday. I would note 
that as your letter makes clear, the responses you received 
have not fully depicted the complexity of this issue.
    As the NRC, we welcome the opportunity to respond to the 
fulsome set of questions you have asked. I think it will allow 
us to depict in context and more accurately than the responses 
you have received. We look forward to doing that.
    Senator Barrasso. Thank you very much.
    On another matter, the State of Wyoming is in the process 
now of becoming an NRC agreement State. This means the State of 
Wyoming would assume the role as the primary regulator for in 
situ uranium recovery.
    I understand Wyoming submitted its final application to the 
NRC on November 13, 2017. Wyoming expects that the NRC will be 
able to sign a formal agreement with Wyoming by September 30, 
2018, the end of the fiscal year. Can you commit to meeting 
that deadline?
    Ms. Svinicki. Chairman Barrasso, I am aware that the staff 
indicates they are on track to prepare a voting matter for the 
Commission, for our review, in the timeframe you have 
indicated. I know in the interim, it will be necessary for both 
the NRC staff and State of Wyoming officials to continue to 
work through any issues.
    Assuming that goes well, I am not aware of any impediments 
to that; my objective is to proceed on that timeframe.
    Senator Barrasso. Thank you.
    Last month, the NRC decided to increase the terms for 
uranium recovery licenses from 10 years to 20 years. The NRC 
recognized the low risk nature of the in situ uranium recovery 
activity. I applaud your leadership and the Commission's 
decisions on that. This is an issue I first raised a couple of 
years ago in 2015.
    Now that the NRC has made this decision, I would like to 
know how the Commission plans to implement it. Will the 
Commission extend the terms of licenses that are currently 
pending at the NRC, or will the NRC act on a case by case 
basis? Will existing licensees need to wait until their 
licenses are amended or up for renewal to obtain a 20 year 
term?
    Can you go through a little bit of that, what the plans 
are, and will the NRC be issuing a guidance document? If so, 
when can we expect to see that document? I would like some 
clarification, please.
    Ms. Svinicki. Yes, thank you for those questions.
    This is a fairly recent policy change made by the 
Commission. Some of the exact implementation you ask about is 
probably still under development, but let me provide the 
details as I understand them.
    I understand that we have two applications pending right 
now for renewal. We have contacted those two applicants and 
told them about the policy change and indicated that if they 
were to amend their application request, we would receive that.
    It would require some work to look at a different timeframe 
for environmental and safety review. We would have to look at 
the extended period.
    We have not received an indication from those two 
applicants of whether or not they intend to amend their 
applications and resubmit. As far as other applications 
submitted going forward, those would come under the new 
timeframe.
    Senator Barrasso. My final question is in October 2017, the 
NRC submitted a report to Senate appropriators on the progress 
made on licensing applications. The NRC's report states, ``The 
NRC staff recently finalized an internal self-assessment that 
identifies possible efficiency improvements within the uranium 
recovery program.''
    What can you tell us about these efficiency improvements?
    Ms. Svinicki. It is a host of measures. I can give you some 
examples and perhaps for the record we could respond more 
fully.
    Some of the things are to continue to urge applicants to 
have a very vigorous pre-application engagement and be able to 
provide better guidance to applicants on what a complete and 
full application needs to contain in order to be reviewed very 
efficiently by the agency.
    Also, there will be new guidance for agency reviewers so 
that they will--as they are developing information requests for 
applicants--make a connection with the safety findings that 
need to be made.
    I would characterize that many of them have to do with 
better communication with applicants during and before the 
application comes in and also improved training and guidance 
for NRC safety reviewers as they conduct the reviews. That is 
the nature of the improvements.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Senator Duckworth is on a tight timeline. I 
am going to yield to her. I will ask my questions in the next 
round.
    Thank you.
    Senator Duckworth. Thank you so much, Mr. Chairman.
    Thank you so much, Ranking Member Carper. That is very 
generous of you.
    As a Senator focused on combating the threat of climate 
change, I do believe that nuclear power remains a vital tool in 
transitioning to a low carbon future. Across our nation, 
nuclear power generates more than half of all of our carbon 
free electricity, and we must make improving the safety of 
nuclear power plants a national priority if we are to avoid 
disasters like Fukushima in the future.
    Chairwoman Svinicki, the nuclear power industry has a 
strategic plan titled ``Delivering the Nuclear Promise,'' which 
aims to reduce operating costs by 28 percent. The NRC has a 
similar plan known as Project Aim whose objective is to reduce 
fees at NRC.
    How are you working to ensure that these programs are 
addressing efficiency improvements but also not cutting corners 
when it comes to safety?
    Ms. Svinicki. Thank you, Senator Duckworth.
    For our Project Aim initiative, as I noted in my opening 
comments, and I think my fellow commissioners testified as 
well, our vital safety and security mission is priority one. As 
we look, as an agency and as a regulator, to improve our own 
efficiency and effectiveness, our No. 1 guiding goal is that 
not diminish our regulatory capability or in any way distract 
from our important mission.
    The industry's effort is their own, the ``Delivering the 
Nuclear Promise.'' However, we have been monitoring that 
activity along the way. If we or our experts were to determine 
that anything related to their efficiency expert efforts were 
to indicate some sort of lack of focus on safety, then we would 
engage under our regulatory framework with them with our 
concerns about anything they were proposing to do.
    To date, we have not noticed that as far as their efforts, 
their separate ``Delivering the Nuclear Promise'' efforts.
    Senator Duckworth. Thank you.
    Commissioners Baran and Burns, do you have any comments you 
would like to make on this?
    Mr. Baran. I would just add that I agree completely with 
you, and that has to be our focus. I think that is maybe the 
biggest challenge NRC has right now. In the last couple of 
years, as a result of Project Aim, we made a lot of good 
changes and captured a lot of efficiencies, but in that time, 
we have seen our work force decline by 12 percent in 2 years. 
That is a significant amount of change.
    Making sure that we are focused on our safety and security 
mission and we do not have any weakening of oversight I think 
is critical as part of that effort.
    Senator Duckworth. Thank you.
    Mr. Burns. I agree with what my colleagues said. I 
subscribe to what they said.
    Senator Duckworth. Thank you.
    I think we can all agree that pinching pennies and saving 
on security inspections, for example, would not only endanger 
lives but also the future of the entire nuclear industry. 
Industry and safety stakeholders across my State have shared 
that the NRC has a strong track record of intervening in safety 
issues when they occur at the nuclear power plant sites 
themselves.
    However, I am concerned by NRC's own safety culture within 
the NRC. Internal data at the NRC indicates the Commission's 
work force appears to be uncomfortable raising safety issues.
    Mr. Chairman, I would ask unanimous consent to enter for 
the record this report by the Union of Concerned Scientists, 
``The Nuclear Regulatory Commission and Safety Culture, Do As I 
Say, Not As I Do.''
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Duckworth. Thank you.
    Chairwoman Svinicki, when management and the work force 
have trust and confidence in each other, workers feel free to 
raise problems. When that trust is broken, poor safety cultures 
develop.
    What steps are you taking to restore a positive safety 
culture at the NRC because I almost feel like the industry 
feels better about the NRC than the people within the NRC 
themselves?
    Ms. Svinicki. Thank you for that question.
    These are important indicators as we survey our own staff 
about their comfort in raising issues with their management or 
through an open door policy. As a matter of fact, all members 
of our Commission currently adopt an open door policy and have 
meetings where staff can bring issues and concerns directly to 
members of our Commission.
    We have instituted agency-wide training of having difficult 
conversations and how do you raise issues. I think we try to 
monitor best practices across corporate America of how do you 
have the right culture of people feeling very free to speak out 
and bring issues forward.
    We monitor and look for best practices and benchmarking. We 
try to bring those lessons, training, and culture back to our 
organization but we monitor that closely. We would, I am sure, 
want to be the model of having an open and free environment for 
people to raise concerns.
    Senator Duckworth. Thank you.
    We have had disposal leaks in my State. It is extremely 
important that we have vigorous Government oversight over our 
nuclear plants and that the experts we hire to oversee this 
work feel empowered at every level to do it well.
    I understand that NRC regulations prohibit nuclear power 
plants from discharging water into rivers that exceed a certain 
temperature threshold. Chairwoman, how is climate change 
impacting the ability of nuclear power plants to operate amidst 
increasing river temperatures? For example, will the NRC seek 
revision to that current regulation, and are current 
regulations impacting the operations of nuclear power plants 
today?
    Ms. Svinicki. Thank you for that question.
    My understanding is the upper bound, the temperature limits 
you spoke of for discharging water, plant output into other 
bodies of water are set based on very rigorous safety and 
environmental analysis.
    I think that if the climate were warming, our analysis 
would still be the same. We would probably encounter more 
frequent circumstances of plants needing to reduce their power 
input based on not exceeding that level.
    I do not know that we would automatically raise the lowest 
levels. I think you would see cases where plants more 
frequently needed to down power, as we call it. They would need 
to reduce their power output in order to respect the level.
    Senator Duckworth. Thank you.
    I am out of time. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Svinicki, we have been doing this for a long time. 
We have been watching the changes that have taken place. In 
fact, the Clean Air and Nuclear Safety Subcommittee was the 
first subcommittee I chaired on this Committee 23 years ago.
    The mission is a vital one. We want our nuclear plants to 
be safe, and they are safe. For several years, we have 
increased oversight of the NRC's budget and questioned why the 
NRC has continued to grow despite a shrinking industry. Seven 
reactors have announced plans to close, and another 20 are at 
risk of closing prematurely.
    We have also raised concerns about the NRC's declining 
productivity. In 2000 the NRC accomplished more work with fewer 
resources, as you can see in this chart. In response to this 
scrutiny, the NRC initiated Project Aim 2020 ``to transform the 
agency over the next 5 years to improve the effectiveness, 
efficiency, and agility of the NRC.''
    However, it appears that Project Aim 2020 will end early 
this coming year. While progress has been made, I do not think 
the NRC has really achieved its transformation.
    Chairman Svinicki, you and I have had discussions about the 
right sizing of the agency. I know you have been chairman for 
only a few months now, but do you agree there is still room for 
a lot more improvement in this area?
    Ms. Svinicki. Thank you, Senator Inhofe.
    The agency has made many efforts under Project Aim. I know 
there have been concerns expressed that Project Aim 2020 is 
terminating early. I would observe that the agency has 
institutionalized many of the Project Aim activities. The need 
now is to develop agency efficiency improvement initiatives for 
the Office of Management and Budget. I would say that we are 
now marrying the Project Aim efforts into the broader kind of 
culture at the agency that says where we can find improvements 
in efficiency and effectiveness, we are doing that.
    I do not observe that we are necessarily winding down the 
Project Aim early. For example, under Project Aim, we began an 
enhanced strategic work force planning initiative. It gets to 
your concern about right sizing.
    This enhanced strategic work force planning is intended to 
improve the fidelity of our resourcing; how many people and 
what kind of expertise do we need to do the forecasted work 
that we have.
    We are piloting it now in three of the offices within the 
agency. That pilot will conclude in July 2018. Then we will be 
looking at agency-wide implementation. Again, this is just one 
aspect but it is the human resource and right sizing aspect to 
improve our understanding of the kind of people and capacity 
that we need.
    Senator Inhofe. That is good, and I appreciate that.
    Let me ask you another question. This is the broad question 
that I don't have the answer for.
    I can remember many years ago, we wanted to enhance the 
position and our portfolio of energy, of nuclear. We went 
through a thing with 8 years of the Obama administration. He 
had his war on fossil fuels, coal, oil, and gas, so you would 
think at that time, he would be wanting to go toward something 
that did not have the footprint he was trying to avoid. That 
would be nuclear, but he did not want nuclear, either.
    Now we have a new Administration. The war on fossil fuel 
has ended, but we still are not getting where we need to be in 
nuclear. Look at France and all the other countries with the 
proper place for nuclear energy. We are just not getting there.
    What seems to be the problem in the United States? I 
thought maybe when the new Administration came in, maybe the 
problem was we are now depending more on coal, oil, and gas, 
and for that reason, we are not advancing in nuclear.
    What is your thinking, or any of the other members? Why 
aren't we doing what I believe and what I think most members--
certainly all the Republicans--believe we should be doing to 
enhance the position of nuclear in the United States?
    Ms. Svinicki. My understanding is that the principal 
contributors are larger economic and market mechanisms that I 
know the Department of Energy and the Federal Energy Regulatory 
Commission would focus on, but they fall outside the domain of 
the Nuclear Regulatory Commission.
    I understand those to be the principal contributors to the 
lack of deployment of additional nuclear in the United States.
    Senator Inhofe. You guys, what do you think?
    Mr. Baran. I think the Chairman is right. I think low 
wholesale electricity prices are a significant factor.
    Mr. Burns. I would agree with the Chairman as well. 
Essentially, it is those types of market forces, low price of 
natural gas, and other types of things like that.
    Senator Inhofe. I just want to see that red arrow going the 
other way.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, I would like to welcome everyone. Thanks for your 
attendance, your responses, and your service.
    At the beginning of his comments, the Chairman mentioned he 
sent a letter to you asking a number of questions. We have some 
concern on another front with respect to EPA not responding to 
questions from our side of the aisle. A number of my colleagues 
have been very supportive of our efforts to get the information 
we deserve and need.
    I would just like to say, make sure the majority, 
particularly the Chairman in this case, gets the information he 
needs. You don't have to belabor this, but I would like to have 
some response as to whether you agree to reaffirm your 
willingness to be responsive to the questions from all of us as 
we go forth.
    Ms. Svinicki. Yes, Senator.
    Senator Carper. Thank you.
    Mr. Baran. Absolutely.
    Mr. Burns. Yes.
    Senator Carper. Thanks so much.
    I have one other question that kind of relates to the 
Chairman's letter to you. This would be for Commissioner Burns.
    Were you the General Counsel of the NRC at the time Uranium 
One and RSB license reviews were taking place?
    Mr. Burns. If you can refresh me; this was around 2010?
    Senator Carper. Yes, I think so.
    Mr. Burns. 2010, yes, I was the General Counsel from 2009 
until early 2012.
    Senator Carper. It is my understanding that unlike nuclear 
reactors, the Nuclear Regulatory Commission regulations do not 
prohibit foreign ownership and control of uranium milling 
operations.
    In fact, it is not unusual for these to be partially fully 
owned by foreign companies. Again, we are talking about milling 
as opposed to refining.
    Go ahead.
    Mr. Burns. You do not have the prohibition for production 
and utilization facilities. However, as with all licensing, you 
have to reach an inimicality finding, that it is not inimical--
that is an unfortunate word in the statute--to the common 
defense and security. That is a finding you have to make in 
licensing determinations.
    Senator Carper. Correct me if I am wrong; I believe it is 
the NRC career staff, not the Commissioners, who make the 
decisions when it comes to the transfer of the milling NRC 
license or to an amendment to an export license; is that 
correct?
    Mr. Burns. I think that is generally true. There are 
circumstances where if you had a contested matter which the 
Commission, in its adjudicatory role, would have to decide, it 
would come to, but I will have to refresh myself as we prepare 
to answer Senator Barrasso's questions.
    I don't think that was the case, that there was not a 
contested or adjudicatory decision that came before the 
Commission at that time.
    [The referenced information follows:]

    As a general rule, the NRC career staff approves 
applications for transfer of control for 10 CFR 40 materials 
licenses. If an application were to be contested, it is 
possible that a hearing decision may be appealed to the 
Commission for its review.
    Commission-level review and approval is, however, required 
for proposed exports of the risk-significant commodities 
identified in the NRC's regulations at 10 CFR section 110.40. 
For these types of proposed exports, career NRC staff initially 
review the export license applications in accordance with 
sections 126, 127, and 128 of the Atomic Energy Act of 1954, as 
amended, and if required, submit the results of their reviews 
to the Commission. If the Commission approves an export, career 
staff in the Office of International Programs issues a license 
to the applicant.
    For proposed exports that are not identified in 10 CFR 
section 110.40, the Commission has delegated the authority to 
review, approve, and issue the export licenses to the NRC 
career staff. Proposed licenses for export of natural uranium 
to Canada, including proposed amendments to an existing export 
license to add a supplier as a party to the license, do not 
require Commission-level review. Nonetheless, the Commission 
would have a role if the application were to be contested 
through the adjudicatory process.
    No contested or adjudicatory decision came before the 
Commission in 2010 regarding the transfer or control of several 
NRC licenses from Uranium One, Inc., a Canadian corporation, to 
JSC Atomredmetzoloto and its subsidiaries.
    No contested or adjudicatory decision came before the 
Commission in 2012 during the amendment to RSB's export license 
(XSOU 8798) to add Uranium One as a party to the license, and 
also no contested or adjudicatory decisions came before the 
Commission on the subsequent four amendments to export license 
XSOU8798 issued to RSB for which Uranium One was a party.

    Senator Carper. My memory is maybe not what used to be 
either but if you find you want to add something for the record 
in response to my questions, that would be fine.
    I would also ask you answer for the record, do you believe 
the NRC staff followed all appropriate regulations and guidance 
for Uranium One and RSB reviews and decisions? If you want to 
respond to that now, you may, or you may respond for the 
record.
    Mr. Burns. I think I will respond for the record because 
again, having just seen the letter come in, as I say, I don't 
have a robust recollection of the particular circumstances at 
that time. I would appreciate the opportunity to do that.
    [The referenced information follows:]

    Although I was not personally involved in either review, to 
the best of my knowledge, NRC staff followed all appropriate 
statutes, regulations, and guidance for the approval of the 
transfer of control of several NRC licenses from Uranium One, 
Inc., a Canadian corporation, to JSC Atomredmetzoloto and its 
subsidiaries in 2010, and in issuing RSB's export license 
XOU8798 in 2012.

    Senator Carper. All right.
    Let us talk a little bit about morale. You used to be at 
the top of the charts, the Nuclear Regulatory Commission, for 
many years, No. 1 in terms of morale, down to No. 11. I think 
you went down to 12, maybe up to 11; you are coming back to the 
right direction. No. 11 with a bullet, I hope, as they say at 
Billboard.
    Commissioner Baran, can you take a minute and tell us about 
the impact of the recent budget cuts? Do you feel these cuts 
have impacted morale, and can the NRC still complete the work 
it needs to do in a timely manner?
    Mr. Baran. Thank you for the question.
    I think you are right that the Project Aim effort and the 
budget cuts have had an impact on morale. I think that is 
primarily because there are few opportunities for promotion, 
often reduced training and rotational opportunities.
    We need to make sure, at the agency, that we retain the 
tremendous talent that we have. It is really a terrific work 
force. It is still a great place to work. I am hopeful that one 
of the things we can do with strategic work force planning 
tools is to help the staff better see if they want to get to a 
certain position in a few years, what are the particular skills 
they would need to work on, the training, the rotational 
opportunities, to get themselves in a position to advance in 
that position or to move into those positions.
    I think that is giving the staff a better sense of what the 
opportunities are at NRC and what they need to do to get 
themselves in the position to take advantage of the 
opportunities. I think that will further help morale. I think 
we are starting to head in the right direction, but it has been 
a challenging time.
    Senator Carper. I have some more questions about new 
reactors and a couple of other things. Maybe we will have 
another round. I am interested in asking some questions 
concerning advanced reactors.
    Thanks for your responses, and I will look forward to the 
responses for the record, Mr. Burns.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you all for being here today.
    On March 8, the very same day that we had a legislative 
hearing on the Bipartisan Nuclear Energy Innovation and 
Modernization Act, which we have joined together on, the GAO 
published a report on the NRC's budget structure and 
justifications.
    In my view, one of the things I found troubling in the 
report was it seems as though the NRC is keeping two sets of 
books, ``one to formulate its budget and another to obligate 
funds based on its appropriations for Congress.''
    To put it another way, the NRC creates in its budget a 
public consumption for Congress but then operates under a 
separate budget under its internal operations, making it tough 
for authorizers and appropriators--which I am an appropriator, 
and obviously we are the authorizers--to discern how the NRC is 
actually spending taxpayer dollars.
    As an example, according to the NRC's monthly report, the 
NRC had 3,241 full-time equivalents this past September. The 
budget justification is for 3,405 FTEs. If you multiply that 
out, that is about $25 million in ``extra funding.'' In other 
words, FTEs that were budgeted for but were not actually 
filled. I believe Mr. Baran mentioned that the work force is 
down 12 percent.
    I would like an explanation of where are these extra 
dollars that were actually appropriated that were not fulfilled 
by the FTEs who were actually working at the NRC and some 
fleshing out of where that is. Does that mean your budget 
request in the future would be lower because you were able to 
roll over this money? How does that work?
    Ms. Svinicki. Thank you for the question, Senator.
    If I can supplement this answer for the record, there are a 
lot of moving parts here. It is true that over the course of 
the last budget year, we were conducting a reduction in force, 
and we were, through attrition, getting smaller in the area of 
FTE.
    The difference in funding I would forecast probably will or 
has shown up as carryover money from one budget year to the 
next. If our staffing levels at the end of the year ended up 
being lower than the requested budget, some of that would 
likely materialize as carryover funding into the fiscal 2018, 
current fiscal year.
    It is difficult, as we develop the agency budget 2 years in 
advance since, we are reducing employment levels; it is 
difficult for us when we submit the budget to forecast the 
exact difference.
    Again, the period you are discussing was a period of 
continued decline in staffing levels. We probably hit a little 
bit under the target and had fewer staff at the end of the 
fiscal year. I think, in general, it is a forecasting error, 
but the money likely would show up as carryover.
    Senator Capito. When you say carryover, does that mean you 
carry over to the next year, and then you subtract that from 
your budget request the upcoming fiscal year?
    Ms. Svinicki. I can check for the turnover of the fiscal 
year this fall but often appropriations clerks will ask us for 
updated estimates of carryover as we approach the end of the 
fiscal year.
    Sometimes appropriators make an adjustment in the enacted 
level based on the carryover since we tend to have the enacted 
levels after the start of the fiscal year.
    Senator Capito. Do you know if the NRC treats this 
carryover or extra amount you have at the end of the year as a 
fungible line item; does it have to go to FTEs? How do you 
treat that?
    Ms. Svinicki. I am not certain if the treatment is 
consistent year to year. Could I take that for the record and 
provide a response?
    Senator Capito. Yes, please.
    Ms. Svinicki. Thank you.
    Senator Capito. I would say anecdotally you are not the 
only commission or Government agency that is falling into this 
category. I don't know, according to the GAO, it was not a 
satisfactory way to actually present the reality of where your 
budget is, where the actual spending is, and what happens to 
this extra or carryover amount.
    I think that needs to be tracked and needs to be accounted 
for. Any additional information you can provide in written form 
would be much appreciated.
    Ms. Svinicki. I would also add that in response to that GAO 
report, I know both House and Senate Appropriations have 
instituted basically additional control points for the 
execution of our budget.
    The monthly report you cited is one of the outgrowths of 
our monthly reporting to our consistency with those budgetary 
control points.
    Senator Capito. I would even say in October 2017 you 
budgeted for 3,293, when in actuality it is 3,137. The pattern 
is still continuing. Realizing that you cannot get it down to 1 
or 2, I get that, but the numbers are significant, I think 156.
    With that, I would just ask if we could submit a question 
or our staff could get with you to get more details on this. 
Thank you.
    Ms. Svinicki. Yes.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Commissioner Baran, right now the United States has 
restarted negotiations with Saudi Arabia on nuclear 
cooperation. Both during the campaign, it turns out, and after 
becoming Trump's National Security Advisor, General Flynn was 
seeking to begin that process.
    So far the Administration has refused to meet the legal 
requirement to keep Congress fully and currently informed of 
any initiative in negotiations relating to a new and amended 
agreement as required by the Atomic Energy Act.
    Last week Trump's Energy Secretary, Rick Perry, visited 
Saudi Arabia to discuss their bids to build new nuclear 
reactors. It has been reported that these deals may allow for 
enrichment of uranium, which all previous U.S. agreements have 
prohibited.
    The NRC has oversight responsibility over the export of 
nuclear source materials and technology. Has the NRC been 
consulted on the export of these potentially sensitive nuclear 
technologies?
    Mr. Baran. As part of the 123 agreement process, NRC, as 
you mentioned, has a role. It comes later in the process when 
there are certain statutory findings the Commission must make 
in order for the 123 agreement recommendation to go to the 
President. We are not at that stage yet.
    Senator Markey. If the agreement does allow for the 
enrichment of uranium or reprocessing of plutonium, do you 
think that could pose a proliferation in safety risks?
    Mr. Baran. It is challenging to answer that question 
without having any sense of what is actually agreed to there.
    Senator Markey. Let me ask it another way. Does a country 
need to be able to enrich or reprocess in order to have a 
civilian nuclear power program or can they bring the uranium 
in?
    Mr. Baran. No, it is not necessary.
    Senator Markey. Not necessary, OK. Thank you.
    The Nuclear Regulatory Commission staff granted the Pilgrim 
Nuclear Power Station an exemption from the requirement that a 
seismic probabilistic risk assessment be performed. This is a 
great concern since Pilgrim saw a bigger increase in seismic 
risk during its post-Fukushima hazard reevaluation than any 
other nuclear power plant.
    The reevaluation found that Pilgrim has a seismic hazard 
that is significantly higher than the plant was designed to 
withstand. Seismic assessments are very important. These are 
used to evaluate how safe nuclear sites are from earthquakes 
and can be used to determine what improvements and changes need 
to be made to protect the sites and surrounding communities 
from disaster.
    Commissioner Baran, while the NRC staff decided that 
Pilgrim is not required to do this assessment, do you think 
that station should voluntarily perform a seismic analysis?
    Mr. Baran. This was, as you mentioned, a staff decision. I 
think the staff, in this case, made the wrong decision. Given 
the particular set of circumstances at Pilgrim, I think NRC 
should have required the detailed seismic risk assessment that 
would have been completed by the end of the year.
    Senator Markey. I agree with you. I think that is the 
position the NRC should be taking.
    Since 2015 Pilgrim has been assessed as having multiple, 
repetitive operational safety violations. Mr. Baran, the NRC is 
currently undertaking a rulemaking to govern the 
decommissioning of plants. As Pilgrim moves toward 
decommissioning in 2019, is there any insight you can provide 
as to how that rulemaking will take operational and physical 
safety into account?
    Mr. Baran. With regard to Pilgrim, it may be that the 
rulemaking is complete after Pilgrim has already shut down. It 
may not be directly applicable to Pilgrim depending on what the 
ultimate timing is. I think the staff is aiming to complete a 
rulemaking package for a draft final rule for Commission review 
by the end of 2019.
    As I mentioned in my opening remarks, I think it is going 
to be a very good move to move away from the regulation by 
exemption approach we currently have. I think it makes sense to 
have, as we do for operating plants, a detailed list of the 
regulatory requirements, safety and security requirements that 
apply to a permanently defueled, decommissioned plant.
    We don't have that right now. This rulemaking would 
accomplish that. I think that is a good move.
    Senator Markey. I think it is imperative that the new rules 
on decommissioning emphasize operational and physical safety 
long after these plants have stopped generating electricity.
    I might just say about the state of this industry, 
obviously Westinghouse went bankrupt trying to complete the 
local plant. That is not because of any attempt by granola 
chomping, tree hugging liberals to stop the construction of 
that plant. It had nothing to do with it.
    It had to do with the very fact that it is very hard and 
very expensive to build nuclear power plants that are safe. 
They are under tremendous pressure obviously from the wind and 
solar industries which is why there is an attempt by the fans 
of all these alternative energy generating sources to take away 
the benefits for those competing sources of energy.
    I might just say in response to the gentleman from Oklahoma 
when he talked about the war in the Obama administration on 
coal, gas and oil, that there was a dramatic, historic rise in 
oil and natural gas production during the Obama administration, 
a dramatic rise. Amongst other things, the drop in the price of 
natural gas is what has led to wind and solar, the very 
difficult economic conditions within which the nuclear power 
industry is trying to survive.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Madam Chair, as I understand it, Wyoming will likely become 
an NRC agreement State in 2018. As a result, the State of 
Wyoming will then begin regulating its uranium recovery 
facilities in place of the NRC doing that.
    Seven of the nine uranium recovery facilities who paid fees 
to the NRC in 2017 are located in Wyoming. The other two are 
located in South Dakota and in my home State of Nebraska.
    The NRC determines its uranium recovery annual fees by 
dividing by the number of facilities. How will the NRC maintain 
the Uranium Recovery Office to ensure the two remaining 
licensees are not unfairly burdened with an extreme increase in 
those regulatory costs?
    Ms. Svinicki. Thank you, Senator, for this question.
    Although our Commission has not grappled with this, I have 
been monitoring the potential impact that agreement State 
status for Wyoming would have in the financial structure of how 
we recover costs.
    I will speak for myself and not for my colleagues that this 
is a management challenge. I appreciate that you have raised 
it. Already our director of the relevant office and our chief 
financial officer are looking at this question.
    With Wyoming taking a significant number of the entities 
now paying fees for uranium recovery regulation, this will be a 
step change for us. This isn't a small change; this will be 
something we are going to have to look at the structure of how 
we are recovering these costs.
    I would like to provide a fuller answer to you for the 
record on exactly where the chief financial officer's 
examination of the question resides. Again, it is a definite 
issue, but I am confident that we are foreseeing it and looking 
at it now.
    Senator Fischer. I would appreciate you responding for the 
record. That would be helpful.
    I would also appreciate if you could keep our office 
informed on the progress you are making on that before you 
announce any decision publicly so that we would be able to have 
some input and also review with you.
    Ms. Svinicki. Yes.
    Senator Fischer. Also, Madam Chair, this Committee has 
tasked the GAO with reviewing the NRC's cost estimating 
practices in the wake of concerns that the NRC significantly 
under estimated the cost of implementing its filtered vents 
proposal.
    In December 2014 the GAO released a report that was fairly 
critical of the NRC's development of cost estimates stating the 
NRC's procedures ``do not adequately support the creation of 
reliable cost estimates and that the filtered vents cost 
estimate did not fully or substantially meet any of the four 
characteristics of a reliable cost estimate.''
    The GAO recommended that the NRC align its cost estimating 
procedures with relevant cost estimating best practices 
identified in the report. However, the NRC staff rejected that 
advice stating, ``The NRC does not believe, however, that the 
standards used by GAO to assess our program are appropriate.''
    More recently, for all 10 monthly reports to this 
Committee, the NRC has stated, ``The staff has not yet taken 
any action to develop specific metrics for assessing the 
quality of its cost-benefit analysis.''
    To summarize, 3 years have passed. The NRC staff rejected 
GAO's advice, and there are no metrics in place to assess the 
quality of the NRC's cost-benefit analysis. My question would 
be what basis does the NRC have for assessing whether the cost-
benefit analyses used by the Commission for decisionmaking are, 
in fact, reliable?
    Ms. Svinicki. Thank you for that question.
    Our Commission recently requested the staff provide an 
update to us on the response to the GAO recommendations. I 
don't dispute your description of the intervening time period, 
but we have now been informed by the agency staff that the 
staff is updating the cost-benefit guidance documents.
    The changes being incorporated include recommendations from 
the GAO's 2014 report findings, including that the agency adopt 
relevant cost estimating best practices identified in the GAO's 
2009 guide or authoritative best practices that the GAO 
referred to.
    This is the staff's communication to the Commission of 
their current activities underway. We will look forward to 
updating you. I do not have a date for when that would be 
published. I think it is 2018, but we can provide that answer 
for the record.
    Senator Fischer. I have a couple other questions I would 
like to submit for the record, Mr. Chairman.
    Thank you.
    Senator Barrasso. You are certainly welcome.
    When Senator Markey referred to tree hugging and granola 
crunching individuals, I know that did not apply to any 
specific member of this Committee.
    With that, let me recognize Senator Whitehouse.
    Senator Whitehouse. Mr. Chairman, I resent that remark. I 
represent that remark.
    [Laughter.]
    Senator Whitehouse. Welcome, all. Thank you for your work.
    I would like to focus with you all for a little bit on the 
question of advanced reactor licensing. As you know, I have 
been persistent about trying to open the possibility of next 
generation advanced nuclear technologies with the ultimate holy 
grail, if possible, of finding nuclear technologies that can 
allow us to go through our nuclear waste stockpile and try to 
turn that into valuable energy rather than leave it lying out 
there as a massive public health and financial liability.
    The bill I have authored and co-sponsored is still in 
process. We have, I think, considerable support for it. It is 
very bipartisan. In the meantime, you all received an 
additional $5 million appropriation for advanced reactor 
licensing.
    I wanted to get your sense on how far that $5 million takes 
you. Does that take you 1 percent of the way to where you need 
to be, 2 percent, 10 percent, or can you wrap your hands and 
say, job done, we are all set with that money?
    Let me put it another way. You are not supposed to ask for 
more money, so let me say if you continue to get that 
additional $5 million year after year, what timeframe does that 
put you on for achieving your goal with respect to advanced 
reactor licensing?
    I know you are responding to all of our concerns about this 
by doing things administratively. Could you fill me in on what 
is happening administratively and what the $5 million does for 
you in the context of what you are trying to achieve?
    Ms. Svinicki. Thank you for that question.
    I will start and my colleagues will probably remember some 
good points that I am not going to remember.
    Making sure that NRC is engaged and part of the dialogue 
that is going on between the Department of Energy, the 
designers of these new designs, and the National Laboratories 
is, I think, the most important use we have put that $5 million 
to. I think having the regulator in the room is important.
    We are bringing to that engagement and have created a 
strategy document and then a series of implementation plans. 
Those are focused toward NRC developing the regulatory 
capacity. Some of that is knowing different fuel cycles and 
different material types, what kind of capacity and expertise 
we need to bring in an informed way to the engagement as the 
community of designers of these advanced reactors want to push 
forward.
    It is also important that NRC experts be present with the 
Department of Energy and the National Laboratory experts 
because I have learned that the researchers that DOE and the 
National Labs are actually drawing upon are the earliest 
experiences of the atomic history of the United States because 
some of the reactor designs are really not entirely new. They 
are designs this country did experimental work on or 
prototyping in the 1960s and 1970s.
    Senator Whitehouse. So this $5 million is generally being 
used on outreach and connection with other facilities?
    Ms. Svinicki. The implementation plans allow us to look at 
what DOE is doing, what the Labs are bringing to the table, and 
what the vendors are identifying as the gaps and needs for 
information that they have.
    Our implementation plans are kind of iterative based on the 
engagement we are going by. We don't want to have total gaps in 
our expertise and regulatory capacity where we have to throw up 
our hands and say, we don't know anything about that type of 
material, so we are never going to be able to approve its use 
in a nuclear reactor.
    I think going forward, we get to taking that framework and 
applying it to specific technical issues. From a budgetary 
standpoint, I think that is where it gets more expensive 
because then the labs need to be doing things, and we need to 
be weighing in on their testing and data plans and say, if you 
collect this data, will it be sufficient for us to make a 
regulatory determination. I think the framework is essential. 
We have spent the $5 million on that.
    Senator Whitehouse. My time is running out now so let me 
ask if the other two Commissioners could make a joint statement 
that you all agree on in terms of a response to this being a 
question for the record? If you would like to add additional 
thoughts of your own, I would invite you to respond in writing 
as a question for the record.
    In my last moments, I want to say again that to me, it is 
very disappointing and discouraging to see safe and safely 
operating nuclear plants that produce carbon-free power have to 
close down in order to build and run new carbon pollution 
generating plants simply because of the market failure of 
having any value to the carbon-free nature of nuclear power.
    I know that is being resolved a bit at the State level. I 
hope I can continue to work with colleagues to try to get 
something done akin to our carbon capture utilization and 
storage bill to encourage the continued safely operating 
nuclear fleet not have to be artificially shut down at a time 
when we could certainly use both the electricity, the jobs in 
those locations, and the carbon-free nature of that power.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Carper.
    Senator Carper. While he is still here in the room munching 
on a granola bar, I just want to say I approve this message, 
approve that message. Thank you.
    I want to come back to something Senator Whitehouse raised 
maybe in a little different way. Maybe 5 or 6 years ago I was 
privileged to go with a member of our staff to France to take a 
look at what they were doing with respect to efforts to recycle 
and reprocess spent fuel to see what lessons there were for us.
    I know additional work has been done, I am sure, in France 
but also here in this country. Can you talk about that a little 
bit, looking forward and with a respect to what we need to be 
doing here on this side of the dais, please?
    Madam Chair, will you go first, and then we will ask the 
other members to join in.
    Ms. Svinicki. On the issue of recycling or reprocessing, 
early in my service on our Commission, I think in 2009, the 
agency received some expressions of interest from potential 
developers of reprocessing capability in the United States.
    I would say though in the last number of years since then, 
as a regulator, we have not heard any expressions of anyone 
interested in development. In 2009 we were asked by the 
potential industry developer could we update our old 
regulations on reprocessing and recycling.
    Before we even undertook that effort, I think the business 
interest in doing it diminished. Other than that, it has been a 
fairly dormant area for us as a regulator.
    Senator Carper. Other members, please.
    Mr. Baran. I would just echo the Chairman's remarks. The 3 
years I have been on the Commission, it is not something I have 
heard anyone propose to move in that direction which may be a 
reflection of low uranium prices.
    Senator Carper. Commissioner Burns.
    Mr. Burns. I agree with what my colleagues have said.
    Senator Carper. In this regard, is there anything going on 
in other countries, France or any other countries where they 
have a fair amount of nuclear that you are aware of?
    Ms. Svinicki. I think for the countries that do engage in 
reprocessing, it is a fairly stable process they have 
developed. I am not aware of them proposing any dramatic 
changes to it. It is pretty stable and known. I think the basic 
process was developed in the 1970s, and I think it has stayed 
essentially the same.
    Senator Carper. Thank you.
    Could we turn to Fukushima, lessons learned from Fukushima, 
lessons we learned from that tragedy and actions we have taken 
here in our country with our own nuclear plants? How are we 
doing in that regard? Just give us an update, please.
    Ms. Svinicki. The implementation of the NRC's post-
Fukushima set of regulatory actions has effectively been 
accomplished. There was some mention made to seismic hazard 
analysis upgrades and the institutionalization for us of 
routine looking at updating of the safety assessments for the 
natural hazards for the facilities.
    Some of the post-Fukushima actions we have taken will have 
a very enduring footprint at the operating facilities across 
the country because they require a very consistent focus on 
being prepared for these very extreme, natural events.
    As an observer of the events at Fukushima and what 
countries around the world have done as they have learned 
lessons from that, I think there has been a strong emphasis on 
the fact there are human people responsible. You can have the 
best set of procedures and response, and you can have exquisite 
equipment available, but it is the individual responders at the 
plants who will need to be able to carry that out. I have seen 
a consistent focus on that from the U.S. industry and also U.S. 
NRC to make sure that training, procedures, and exercises will 
be the essential element to the resiliency going forward.
    Senator Carper. Thank you.
    Commissioner Baran and Commissioner Burns, would you like 
to add to that, please?
    Mr. Baran. Sure. There has definitely been a lot of 
progress on the ground in terms of equipment to address certain 
accident scenarios. I have traveled to plants all across the 
country. If you go to a plant, you will see a dome or some 
other type of structure that is filled with equipment that can 
be used at any plant in the country, generators, pumps, hoses 
that would be extremely useful, I think everyone agrees, in the 
event of an accident scenario. That is all new equipment since 
Fukushima. That is a concrete manifestation of the effort. 
Spent fuel pool instrumentation levels, that was something not 
previously required that is now in every plant in the country.
    The long-pull intent has been severe accident capable vents 
for certain boiling water Mark I and Mark IIs. Those are going 
to be completed in the 2018-2019 timeframe. Really the only 
thing else that is kind of outstanding are some of these hazard 
evaluations which are, in some cases, multi-year efforts.
    Senator Carper. All right; thank you.
    Commissioner Burns.
    Mr. Burns. I would just add that in many respects what the 
industry has built on from the requirements that we imposed 
after Fukushima actually had some origin in our thinking after 
9/11 in terms of the ability to withstand large explosions and 
things like that.
    There was a baseline due to requirements the agency had 
adopted after 9/11 that were really built on the Fukushima era.
    The other thing I might add is that I have had the 
opportunity to go to a number of nuclear power plants outside 
of the United States. For the most part, I think our approach 
is very similar and what is going on in other countries is very 
similar to what we have been doing in terms of addressing the 
type of way to basically prepare for the unexpected, the beyond 
design basis accident. I think worldwide we are pretty much on 
the same page.
    Senator Carper. Thanks.
    When you look at the difficulties we have encountered, they 
have been encountered in South Carolina and Georgia in the 
construction of new facilities. I understand in Georgia, they 
are still under construction, and in South Carolina 
construction, the work has stopped.
    Do you have any idea whether or not some of the lessons 
learned from Fukushima added to the cost of these projects in a 
way that sort of led to their slowdown and in one case, 
stoppage?
    Ms. Svinicki. I do not have any rigorous analysis of that. 
I would be very, very surprised if that played a role. That 
does not logically follow to me because the types of actions 
post-Fukushima are all something well contemplated by the new 
plants.
    I do not think in terms of an increment of additional 
expense; they would not be significant enough to cause a plant 
cancellation.
    Senator Carper. Do the two Commissioners agree with that?
    Mr. Baran. I agree. I do not think it was the result of 
anything NRC did.
    Mr. Burns. I would agree. As I think the Chairman alluded, 
the passive designs, that is, in effect, the Generation III+, 
that is the advantage of the AP1000 and some of the new 
designs. Those passive designs sort of account for some of 
those aspects.
    Senator Carper. Is the largest factor that led to the 
decision not to go forward with the South Carolina project, and 
frankly, decisions around the country to close or mark for 
closure a number of nuclear plants, have more to do with the 
very low cost of natural gas? Is that a bigger factor?
    Ms. Svinicki. I know that the South Carolina Public Utility 
Commission and the State legislature are conducting a series of 
hearings. I suspect that when all the analyses are done, there 
will be multiple contributors to why the project was abandoned.
    I think some of them will revolve around project management 
aspects. Others will be perhaps the Westinghouse bankruptcy as 
a complicating factor and others, but I suspect there will be 
multiple contributors to why the project did go through to 
completion. I know the State is looking closely at that.
    Senator Carper. All right.
    Gentlemen, anything?
    Mr. Baran. I don't know that I have anything to add to that 
other than I think putting aside the Summer plant, I think that 
is a factor obviously utilities are looking at if they have a 
combined license to build a new plant, what are the wholesale 
electricity prices, and are they sufficient to support 
construction of a new plant? I do think that is a key factor.
    Senator Carper. Our colleagues from Georgia have been 
supportive of including in tax reform legislation a provision 
dealing with the section of the Code called 45J, the investment 
tax credit provision. Are you familiar with that? Do you have 
any views on that?
    Ms. Svinicki. I am certainly not expert, but I have read 
the same comments from the constructors of the Vogtle Units who 
thought the continuation or extension of certain favorable tax 
treatment is an underlying part of their business case for 
completing the Vogtle Units, but again, I don't have separate 
expertise on that. I have just read the same statements by the 
constructors of the plan.
    Senator Carper. Gentlemen.
    Mr. Baran. No.
    Mr. Burns. No.
    Senator Carper. Last, I like to ask people who have been 
married a long time what is the secret to being married a long 
time? I get great and really funny answers. I ask people who 
have been together 50, 60, or 70 years.
    One of my favorite answers is, I explain the two C's, 
communicate and compromise. In Delaware, we have added two more 
C's, civility and collaboration. I think that is not just the 
secret for a long union between two people; it is also the 
secret for a vibrant democracy and effective leadership.
    I said to the Chairman before we started that in the past, 
I remembered gathering here for oversight hearings with the 
Commissioners, and they were not happy chapters in your lives 
or ours. There was a time when the Commission really struggled 
at working together.
    I would just ask the three of you, with respect to the four 
C's, communicate, compromise, civility, and collaboration, how 
are you doing?
    Ms. Svinicki. Again, I feel very privileged to serve with 
the two gentlemen who are here with me. We always welcome new 
colleagues. I think I have had four chairmen and a lot of 
different colleagues during my nearly 10 years on our 
Commission.
    Again, Commissioner Burns was so gracious in assisting me 
in taking over the chairmanship. I am very grateful. I continue 
to consult with him on matters and say, how did you handle this 
as chairman.
    I would say we are doing very well. I think the secret to 
getting along is respect. It does not mean you agree on 
everything.
    Senator Carper. How do you spell that, r-e-s-p-e-c-t?
    Ms. Svinicki. I think it is something Senator Duckworth 
mentioned, our own safety culture and the willingness to raise 
concerns. Part of the training in having difficult 
conversations with colleagues or with your boss is that respect 
element. That is some of what we emphasize there. I think as a 
Commission, we try to model that.
    Senator Carper. Commissioner Burns, are you going to sit 
there and let her say that, get away with that?
    Mr. Burns. Absolutely. Having just reached my 40th wedding 
anniversary this year, I agree with your characterization of 
what is successful. I am sure my wife will, too.
    Senator Carper. Mr. Baran.
    Mr. Baran. I agree with my colleagues. The three of us work 
very well together. We do not always agree on policy matters, 
and that is fine. That is the idea behind a commission. You 
have people with different views and different experiences. 
Sometimes they agree; sometimes they do not. We try to persuade 
each other.
    We are always excited if we can persuade each other. We 
often find common ground and compromise. We have a lot of 
decisions where we are 3-0. I think it has worked well, and I 
am very happy with the colleagues I have.
    Senator Carper. Thanks.
    Mr. Chairman, I know I said I only had one more. Could I 
ask a question with respect to cyber attacks?
    Senator Barrasso. Yes, please do.
    Senator Carper. Earlier this year, there were reports of 
possible cyber attacks on some of our nuclear reactors, as you 
know. I would like to ask how is coordination going with the 
other relevant Federal agencies? There are a number of them 
including the Department of Homeland Security. How is that 
coordination going as we help defend our reactors from these 
kinds of attacks in the future?
    Ms. Svinicki. Our commission of the Nuclear Regulatory 
Commission and our direct commissioner involvement, I think has 
a really strong track record. In the entirety of my service on 
the Commission, we conducted twice a year meetings where we go 
into the appropriate setting with a representative sampling of 
our Federal partners who monitor these events very, very 
closely.
    I am not aware that other commissions have that as a 
routine practice. It allows us to hear directly from 
intelligence analysts from throughout the Government. I think 
as a result our confidence in our regulatory response to cyber 
security is raised because we monitor this very frequently and 
very directly.
    We have our own experts as well, and they are in the room, 
but I think to invite interagency partners to come and sit with 
us as political appointees is very important. I am very proud 
that we do that.
    Senator Carper. Good.
    Gentlemen.
    Mr. Baran. I agree.
    Mr. Burns. I agree. It has been very useful. I think it 
helps our thinking and our preparation as well as for our staff 
because it is something that is not going to go away. We need 
to continue to be vigilant about it.
    Senator Carper. Madam Chairman, do you have any advice for 
us to enable you to do your jobs better, a couple words? A lot 
of times, I ask a question and people say more oversight. They 
say more oversight, which is interesting. Any advice for us?
    Ms. Svinicki. I do think the consistent engagement that you 
have with our Commission as a Committee and the staffs that 
support you and the work that you do allows the Committee 
staff, because of the consistency of your interest, to be able 
to have the time to develop the knowledge and expertise on our 
issues as an agency.
    I think that really benefits us because I know Senators--
and their staffs as a result--are pulled in many different 
directions on any given day. I think the opportunity for your 
staff to work with us more directly and develop kind of a long 
term observation of our agency's achievement, progress, and 
challenges is a helpful back and forth engagement we have.
    Senator Carper. All right.
    Gentlemen.
    Mr. Baran. I agree. I appreciate that in my time on the 
Commission, the 3 years here, we have had so many constructive 
hearings where we go through both management-type issues and 
budget-type issues, but also more policy focused issues. I have 
found it to be very constructive and very useful.
    It sounds hokey, but really that oversight is important. We 
appreciate it, and as someone who worked for the House of 
Representatives doing oversight work, it is extremely valuable.
    Senator Carper. Commissioner Burns.
    Mr. Burns. I would agree. As I think the Chairman alluded, 
for us as Commissioners, and that is our day-to-day work, they 
are not easy issues so the engagement with the staff as well as 
engagement with you directly, I think, helps us all understand 
the challenges we have, the concerns you have, and how we can 
work through them.
    Senator Carper. Thank you all very much.
    Senator Barrasso. There are two final questions, and then 
we will conclude this.
    Chairman Svinicki, Mick Mulvaney, Director of OMB, had a 
memorandum sent out to the heads of departments of agencies in 
July of this past year. In the memorandum, he provided guidance 
for the development of the fiscal year 2019 budget.
    He specifically highlighted how and said, ``The fiscal year 
2019 budget process will give special consideration to bold 
reform or reorganization proposals that have the potential to 
dramatically improve effectiveness and efficiency of Government 
operations.''
    Is the NRC considering any proposals that might align with 
what he is recommending in his guidance?
    Ms. Svinicki. Of course our engagement with OMB is in 
advance of the President's budget roll out in February of next 
year. There are, of course, sensitivities, but as a general 
matter, we have been engaging with OMB in the development of 
our fiscal 2019 budget.
    An element of that, as you mentioned, are these reform 
initiatives and proposals. We have engaged our examiner. She 
has come back and asked us additional questions. We have been 
in the process of developing our agency proposals to accompany 
the President's fiscal 2019 budget.
    That engagement has been going on. I understand there may 
be some additional feedback that we receive in the coming 
months prior to the budget roll out. When we appear before the 
Committee next year in support of our budget, we can speak of 
those specifics at that time.
    Senator Barrasso. For the final question, I called on the 
NRC to consider implementing the flat fee structure for routine 
uranium recovery licensing actions. To date, the NRC has taken 
multiple years, as I mentioned, to establish a pilot program 
for a sector with only 11 licensees.
    I am just concerned the NRC is taking too long to get the 
program up and running. The agreement States like Texas and 
Utah already have flat fees in place for routine uranium 
recovery licensing actions.
    Can you talk a bit about the cause of delay and why the NRC 
cannot use programs already put in place like Texas and Utah as 
maybe templates for your own program?
    Ms. Svinicki. I agree, Chairman Barrasso, it does seem like 
a prolonged period but I have come to understand from the NRC 
staff a couple of things that persuaded me.
    The first is uranium recovery is a pilot for flat fee. I 
think the agency is intrigued about the potential use of flat 
fees beyond uranium recovery and other areas. As a result, the 
NRC staff really wants the pilot to be successful.
    In order for it to be successful, they need to develop the 
flat fee estimates with a certain level of fidelity. The best 
way I could describe this--and the staff has not corrected me, 
so I hope I am right about this--is we know what recent uranium 
recovery fees have been, but we do not have a good 
understanding on what to attribute.
    If one cost X million dollars and another cost Y, we don't 
just want to average X and Y and say that is the flat fee 
because what if the one that was higher had a lot of 
complexity? It is not going to be an equitable and realistic 
flat fee estimate.
    I know it seems like a very prolonged period. With the 
parallel development of Wyoming's agreement State agreement, it 
may be this was not the best area to pilot given other events.
    I think the agency is very committed to exploring flat fees 
because we think they have promise for other types of licensees 
as well. Our commitment is to doing a pilot that will 
demonstrate that and doesn't just fail maybe for reasons that 
we did not prepare it properly.
    Senator Barrasso. Members may submit additional questions, 
as you know, for the record. The hearing record will remain 
open for 2 weeks.
    I want to thank the witnesses for your time and your 
testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
